<html>
<title> - COMBATING SEXUAL EXPLOITATION OF CHILDREN: STRENGTHENING INTERNATIONAL LAW ENFORCEMENT COOPERATION</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





COMBATING SEXUAL EXPLOITATION OF CHILDREN: STRENGTHENING INTERNATIONAL 
                      LAW ENFORCEMENT COOPERATION

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2008

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via http://www.csce.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

75-929                        WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                  
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE                               HOUSE

BENJAMIN CARDIN, Maryland,           ALCEE HASTINGS, Florida,
  Co-Chairman                          Chairman
RUSSELL FEINGOLD, Wisconsin          LOUISE McINTOSH SLAUGHTER,
CHRISTOPHER DODD, Connecticut          New York
HILARY RODHAM CLINTON, New York      MIKE McINTYRE, North Carolina 
JOHN KERRY, Massachusetts            G.K. BUTTERFIELD, North Carolina
SAM BROWNBACK, Kansas                CHRISTOPHER SMITH, New Jersey    
GORDON SMITH, Oregon                 ROBERT ADERHOLT, Alabama
SAXBY CHAMBLISS, Georgia             JOSEPH PITTS, Pennsylvania
RICHARD BURR, North Carolina         MIKE PENCE, Indiana       

                     EXECUTIVE BRANCH COMMISSIONERS

                   DAVID KRAMER, Department of State
                 MARY BETH LONG, Department of Defense
              DAVID STEEL BOHIGIAN, Department of Commerce
COMBATING SEXUAL EXPLOITATION OF CHILDREN: STRENGTHENING INTERNATIONAL 
                      LAW ENFORCEMENT COOPERATION

                              ----------                              



                             June 17, 2009

                             COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Chris Smith, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     2

                                 MEMBER

Hon. Debbie Wasserman Schultz, a Member of Congress from the 
  State of Florida...............................................     6

                               WITNESSES

Timothy Williams, Deputy Director, Interpol U.S National Central 
  Bureau.........................................................     4
Shawn Bray, Unit Chief, Ice Cyber Crimes Center Department of 
  Homeland Security..............................................     6
James Finch, Assistant Director Cyber Division, Federal Bureau of 
  Investigation..................................................     8
Ernie Allen, President and CEO, National Center For Missing and 
  Exploited Children.............................................    18
Tim Cranton, Associate General Counsel Worldwide Internet Safety 
  Programs, Microsoft Corporation................................    21

 
COMBATING SEXUAL EXPLOITATION OF CHILDREN: STRENGTHENING INTERNATIONAL 
                      LAW ENFORCEMENT COOPERATION

                              ----------                              


                             JUNE 17, 2009

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held at 3:35 p.m. EST in B-138 Rayburn 
House Office Building, Washington, DC, Hon. Alcee Hastings, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Chris Smith, Commissioner, 
Commission on Security and Cooperation in Europe.
    Witnesses present: Timothy Williams, Deputy Director, 
Interpol U.S. National Central Bureau; Shawn Bray, Unit Chief, 
Ice Cyber Crimes Center Department of Homeland Security; James 
Finch, Assistant Director Cyber Division, Federal Bureau of 
Investigation; Tim Cranton, Associate General Counsel Worldwide 
Internet Safety Programs, Microsoft Corporation; and Ernie 
Allen, President and CEO, National Center For Missing and 
Exploited Children.

   HON. ALCEE HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. If I could ask our hearing to come to order 
and ask our witnesses to take their seats, I'd appreciate it 
very much. I'm very grateful for all of you being here today.
    Child pornography has exploded into a multinational, 
multibillion dollar enterprise, with potential outlets in every 
home and office connected to the Internet.
    Sex tourism is on the rise as international travel has 
become easier and cheaper. That may change a little bit with 
the way gas prices are going out there and the number of 
flights being changed, but I get the point here. There are 
strong indicators that those who view and possess child 
pornography are more likely to become predators and abuse 
children themselves, further feeding the cycle.
    As with other addictive behaviors, these individuals are 
often driven into more extreme acts, preying on younger victims 
or employing violence. Organized crime, including gangs, also 
appears to be venturing further into the lucrative trade in 
children. As a result, global criminal networks are springing 
up, further complicating efforts to prosecute those responsible 
for these horrendous crimes against children.
    In my state of Florida, there have been several cases 
involving sexual exploitation of children and in one recent 
case, a man was convicted of traveling to Cambodia for the 
express purpose of engaging in sexual activity with children. 
In another, two men were convicted of producing pornographic 
videos of children and posting them on the Internet.
    Law enforcement, both in the United States and abroad, has 
more cases to pursue than resources available. As many cases 
involve leads in more than one country, effective and 
expeditious international cooperation is vital to rescuing 
children and prosecuting perpetrators. Regular exchange of 
information and real-time access to leads is crucial to police 
actions. Slow bureaucracies and differing laws among countries 
are sometimes obstacles to investigations and prosecutions. Our 
commission supported two OSCE ministerial decisions that commit 
participating states to criminalize child pornography and 
stepping up cooperation with other countries to fight it. This 
political will is a good start, but it needs resources and 
practical tools for implementation.
    I look forward to hearing from our witnesses and what they 
recommend the United States should do to help strengthen the 
international toolbox. I do welcome the agreement announced 
last week that Verizon, Sprint and Time Warner Cable have 
agreed to block access to Internet bulletin boards and Web 
sites nationwide that disseminate child pornography. Federal 
law requires Internet providers to report child pornography to 
the National Center for Missing and Exploited Children. But 
because it took customer complaints to trigger a report, this 
was not always effective. Before calling on my colleague, 
Representative Smith, the ranking member and a leader in this 
field, as the special rapporteur of the Parliamentary Assembly 
of OSCE for trafficking in humans, I'd like to know the order 
in which we will receive our testimony this afternoon.
    Our first witness is going to be Timothy Williams, the 
Deputy Director of the U.S. National Central Bureau of 
Interpol, followed by Mr. Shawn Bray, the Unit Chief of the 
Immigration and Customs Enforcement Cyber Crimes Center and in 
the Department of Homeland Security, and then Mr. James Finch, 
the Assistant Director of the Cyber Division in the Federal 
Bureau of Investigation.
    We will then hear from an additional panel of witnesses, 
Mr. Tim Cranton, Associate General Counsel, Worldwide Internet 
Safety Programs, the Microsoft Corporation, and Ernie Allen, 
President and CEO of the National Center for Missing and 
Exploited Children.
    I'd like now to turn to Representative Smith.
    For the biographies of our witnesses, you will find them 
available at the table outside, without me getting into all of 
the credentials. Gentlemen, when you do testify, your full 
statement will be entered into the record and you may summarize 
as you see fit.
    Representative Smith.

             HON. CHRISTOPHER SMITH, COMMISSIONER,

        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman, for calling 
this very important hearing on the critical question of how we 
can strengthen international law enforcement cooperation to 
combat child sexual exploitation. According to the recently 
released State Department trafficking in persons report for 
2008, an estimated two million children worldwide are subjected 
to exploitation in the transnational sex trade.
    A child who is forced into prostitution may be victimized 
by anywhere from 100 to 1,500 perpetrators in one year. It is 
estimated that more than four million Internet sites around the 
globe contain exploitive material about children and as many as 
500 new sites are created daily. The U.S. Bureau of Federal 
Investigation estimates that $20 billion worth of business 
revenue is generated annually from fee-based child porn sites.
    Based on these numbers, it is apparent that sexual 
exploitation of children is becoming an increasing 
transnational crime, as travel becomes quicker and easier and 
the Internet provides a platform for pedophiles to access vast 
amounts of child pornography and to stalk children online.
    Sexual predators travel to other countries with the express 
purpose of abusing children. Such crimes committed by an 
American, as we all know, can be prosecuted in the United 
States, even if the crime took place in another country. Many 
other countries are putting together and enacting similar laws, 
and I would note, as the chairman said, they must be matched 
with the resources. But that is only a start. We need to do 
more to fight these horrific crimes against children and 
because the crimes often involve more than one country, we need 
to ensure that our law enforcement authorities work as 
effectively as possible with their counterparts internationally 
both to prevent and investigate possible crimes involving child 
exploitation.
    Mr. Chairman, in 1994, a seven-year-old girl in my district 
was brutally raped and murdered by a repeat sex offender living 
literally across the street, unbeknownst to the victim, her 
family or her neighbors.
    This tragic event resulted in what is now known as Megan's 
Law--her name was Megan Kanka--which established a notification 
system to provide the public with the knowledge needed to 
prevent a similar crime from happening. But Americans are not 
the only ones concerned with protecting their vulnerable 
populations from predators. In the course of my work in 
combating human trafficking, especially as special rapporteur, 
I have met with numerous foreign government and law enforcement 
officials who have asked me what the United States is doing to 
prevent its citizens from traveling to their countries and 
abusing their children. It has become apparent to me that a 
global system must be established that gives notice of sex 
offender international travel to the appropriate authorities.
    We know that law enforcement officials in numerous 
countries are working to provide such notice. For example, just 
last month, a South Korean newspaper reported that the attache 
from U.S. Immigration and Customs Enforcement Agency had 
informed South Korean officials of 21 individuals listed on the 
California sex offender registry.
    These individuals have been identified as traveling 
frequently to Asian countries and all of them have been 
convicted in California of assaulting children under 14 years 
of age. South Korea announced that, based on the notice, it was 
banning any future entry by those sex offenders.
    Foreign sexual predators also pose a significant threat to 
children and others within our borders. Since 2003, U.S. 
Immigration and Customs Enforcement agents have arrested over 
9,100 non-U.S. citizens suspected of being child predators and 
sex offenders. Violations have included child pornography, 
child sex tourism, trafficking of minors and those who 
facilitate such exploitation.
    Recently, U.S. officials learned that a lifetime registered 
sex offender from the U.K. was intending to move to California 
to live with a woman he met on the Internet and other young 
girls in her household. It was thanks to the Interpol 
communication of the U.K. sex offender travel notification 
system that the man was refused entry and the woman and girls 
in that house were spared possible victimization. While the 
officials who are taking these measures to prevent the 
exploitation of children are to be highly commended, the 
magnitude of the problem requires a more sophisticated 
systematic and comprehensive approach.
    We have the data and the technology to seriously curtail 
this burgeoning criminal activity. What is required is the 
political will to implement and use it. That is why I've 
introduced a bill, Mr. Chairman, H.R. 57822, to galvanize that 
political will. The international Megan's Law aims to prevent 
child exploitation across borders by sexual offenders, 
specifically by establishing a system that provides notice to 
foreign government officials when a known sex offender in the 
United States intends to travel to their country, ensuring that 
foreign nationals have a committed sex offense are denied entry 
into the U.S., providing strict penalties for noncompliance by 
sex offenders with their reporting requirements, and requiring 
the State Department to report annually to Congress regarding 
the establishment of systems globally to identify and provide 
notice of international travel by sex offenders to authorities 
in destination countries.
    It is evident that cooperation between law enforcement in 
each country is essential to accomplishing the goal of this 
legislation and to ending the exploitation of any child 
regardless of where he or she may live.
    I look forward to hearing from our distinguished witnesses 
about efforts that are currently underway to promote this 
important goal and how we in Congress can support and further 
strengthen those efforts. I want to thank you for this very 
timely and important hearing.
    Mr. Hastings. Thank you very much, Congressman Smith and 
Commissioner Smith. Mr. Williams, you may proceed as you see 
fit, sir.

   TIMOTHY WILLIAMS, DEPUTY DIRECTOR, INTERPOL U.S. NATIONAL 
                         CENTRAL BUREAU

    Mr. Williams. Mr. Chairman, Mr. Smith, I want to thank you 
for the opportunity to address the commission concerning the 
fight against sexual exploitation of children.
    Preventing crime, especially preventing crimes against 
children, is the goal of all law enforcement agencies. It is 
also a priority for Interpol to provide quick and effective 
responses to all incidences of crimes against children.
    By way of background, my name is Tim Williams. I'm a U.S. 
marshal, with 23 years of law enforcement experience and 
detailed as the deputy director to the USNCB, as you said 
earlier. To fight crime against children, police need to 
cooperate on a global basis. Indeed, the Internet disregards 
the borders and complicates the work of police in identifying 
and locating offenders. Images of children can easily be taken 
and uploaded in one country and then made available to anyone 
in the world with a computer and an Internet connection. 
Consequently, the existence of a central entity to collect, 
store, analyze and disseminate images and information on the 
exploitation of children through the use of the Internet is 
crucial to effectively combating these offenses.
    Interpol, the International Criminal Police Organization, 
with 186 member countries and an established communications 
network for police cooperation, is ideally suited to serve this 
role. In fact, the G-8, the European Commission and Europol 
have all recently reached this same conclusion. Interpol's main 
work involves serving as a secure communications network for 
its member countries and coordinating international 
investigations. Interpol also manages databases containing law 
enforcement information. Each of Interpol's 186 member 
countries has a national central bureau, like the USNCB, which 
serves as its representative to Interpol and the point of 
contact for all Interpol matters for the countries' national 
authorities.
    Interpol is currently developing a program to combat child 
pornography, working in conjunction with member countries and 
certainly our law enforcement partners here in the United 
States. The program includes a child abuse image database, 
called the International Child Sexual Exploitation Database, or 
ICSE. That helps police in their efforts to identify both 
victims of sexual abuse and the offenders. The program and the 
database will allow specialized investigators in member 
countries to access the database securely and examine and 
analyze the images it contains. The Interpol system will also 
allow member countries to provide the images to the database 
for use by police in other countries.
    Another key role that I believe Interpol will play is in 
the tracking of dangerous convicted sex offenders. Interpol 
will utilize its notice program to assist the U.S. Marshal's 
Service, Immigration and Customs Enforcement, the FBI and other 
law enforcement agencies track the most serious offenders who 
travel internationally.
    One recent example of Interpol's role in the international 
cooperation was a case that you certainly made reference to 
involving a few countries. But last month, our Interpol 
headquarters sent out a worldwide message requesting assistance 
determining the identity of an individual that was photographed 
abusing young children. Within 48 hours after receiving 
numerous tips from the public in response to the Interpol 
notice, ICE agents arrested this individual in the state of New 
Jersey. This successful arrest demonstrated the outstanding 
cooperation between law enforcement officials in many countries 
around the world and the effectiveness of Interpol as a 
mechanism for this collaboration.
    I want to thank you and I'm going to welcome any questions 
you have after everyone is done.
    Mr. Hastings. All right. Thank you, Mr. Williams.
    We've been joined by our colleague, Debbie Wasserman 
Schultz, my good friend and neighbor in the south Florida area, 
who has championed this particular measure, having filed a 
companion bill with Senator Biden that adds $1 billion over 
eight years to improve the federal government's coordination in 
child abuse, sexual exploitation cases.
    Debbie also wears another label and there have been some 
tragic situations in the last few days. She works very actively 
to try to help families and others cause children not to drown 
in swimming pools. In our neighborhood this past week, we had 
yet another example of why that legislation is important.
    But, Debbie, if there are any comments you would like to 
make, you may.

 HON. DEBBIE WASSERMAN SCHULTZ, A MEMBER OF CONGRESS FROM THE 
                        STATE OF FLORIDA

    Ms. Wasserman Schultz. Mr. Chairman, I appreciate the 
opportunity to join the commission. Since I don't have much of 
a voice, I want to express my appreciation to you for extending 
the invitation. Thank you.
    Mr. Hastings. Thank you. Mr. Bray, you may proceed, sir.

SHAWN BRAY, UNIT CHIEF, ICE CYBER CRIMES CENTER, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Bray. Thank you, Chairman Hastings, Commissioner Smith, 
Ms. Wasserman Schultz. Good afternoon. Start with that. My name 
is Shawn Bray and I am the unit chief of the ICE Cyber Crimes 
Center, ICE being Immigration and Customs Enforcement. I 
appreciate the opportunity to discuss our authorities and 
responsibilities to you in the U.S. with respect to 
investigating trans-border and transnational child exploitation 
crime.
    In my written statement, I set forth many of our missions 
and responsibilities, which I will not read or go through in 
detail, partly because I'm sure you're familiar with them and 
largely because I would rather focus on real examples of law 
enforcement cooperation on an international level and real 
cases, which is what I believe you would like to hear. I'd like 
to put these examples and cases in context by highlighting the 
responsibilities of the unit.
    The Immigration and Customs Enforcement Cyber Crimes Center 
has three core missions. We investigate violations of 
immigrations and customs law that occur in cyber space, 
including sexual exploitation of children over the Internet. 
This is a global explosion, partly due to the expansion of our 
communications systems and information technologies, which has 
been embraced by criminals and predators seeking to extend 
their reach into new frontiers.
    The trafficking of child pornography is a prime example of 
this reach and is now facilitated and made easier through the 
growth of the Internet. We work diligently to identify and 
dismantle the international criminal organizations that operate 
commercial child exploitation Web sites, as well as identify 
those individuals that frequent and subscribe to these Web 
sites. We use and develop sophisticated investigative 
techniques to target those individuals, organizations and 
others involved in the exploitation of children via the 
Internet.
    Now, I'd like to discuss the ways in which the Cyber Crimes 
Center coordinates closely with our domestic and international 
law enforcement partners and NGOs. First, communications are an 
absolute imperative across all channels, government, law 
enforcement, private and NGO. In order to be effective, it must 
occur. We understand the need for cooperation and teamwork not 
only within the United States, but with the international 
community, as well.
    Many of these groups that we work with nationally and 
internationally include the Internet crimes against children 
task forces and the various elements under the Department of 
Justice, including Project Safe Childhood, our partners with 
the FBI, the Child Exploitation and Obscenity Section. 
Nongovernmental organizations, such as the National Center for 
Missing and Exploited Children, are necessary to maximize the 
effectiveness of the international investigations and our 
efforts to protect children.
    With regard to the national center, ICE is a partner there 
and we do review, develop, de-conflict and assign leads from 
their Cyber tip line to the field nationally and 
internationally. We are also a member with the Financial 
Coalition Against Child Pornography, which I'm sure you will 
hear from President Allen later. We also conduct and have 
developed a national child victim identification program. This 
program is a technology-based solution, storing known victim 
images which we can use to support prosecutions. The ICE Cyber 
Crimes Center has populated this system with approximately 707 
known victims series. These series consist of over 170,000 
individuals images. These images are provided to law 
enforcement at all levels nationally and internationally.
    Since strengthening law enforcement cooperation is of 
interest, I'd like to tell you some of the success stories that 
we've had in significant international partnerships.
    The Virtual Global Task Force has a very simple mission--to 
make the Internet a safer place for children, to identify and 
locate and help those children at risk, and to successfully 
prosecute perpetrators of child exploitation. The members of 
that include the Australian federal police, the Royal Canadian 
Mounted Police, the United Kingdom's child exploitation online 
protection center, the Italian federal police, our partners at 
Interpol, and, of course, ICE.
    Recent successes under the Virtual Global Task Force. Two 
weeks ago, on an afternoon, when I was spending time with my 
family, I received notification that we had rescued, within 24 
hours, an 18-month-old that was being abused overseas. Images 
were posted to the Internet. They were found by ICE agents in 
the Midwest. They were communicated to headquarters. We took 
those to the Virtual Global Task Force, passed those over into 
the U.K., where they were able to affect an arrest, within 24 
hours, rescuing an 18-month-old child. Based on information 
from the Virtual Global Task Force that we received, we were 
able to rescue an 11-year-old boy in Maryland one week after 
the case was opened and the subject pled guilty, receiving a 
sentence of 30 years in that investigation. This is immediate. 
This is very direct and these kind of communications are 
exactly what I'm trying to highlight and focus on.
    As horrific as those are, we've had the International Youth 
Advisory Congress, from July 17 to 21 of this year, over in 
London, there will be the first ever Youth Advisory Congress 
set up of 200 young people to meet with business, law 
enforcement, government and representatives from the service 
community. Their goal will be to discuss child protection in 
their communities and child safety online. These young people 
will be approximately ages 14 to 17. Their mission, their 
charter for this first meeting is to establish a road map and 
strategy, a partnership with industry, government, law 
enforcement and education to sign up and eventually have a 
product to present to the U.N. It's an ambitious goal, but it's 
one that I'm sure that they're well suited for.
    ICE will be representing the U.S. at this conference. We'll 
be sending 20 young people over there, along with four 
chaperones, school resource officers from the metro D.C. area. 
In addition to the global task force, ICE also has 54 attach 
offices worldwide. These attache offices are the foundation of 
our law enforcement actions and partnerships, with particular 
emphasis on child pornography and child sex tourism 
investigations. Through these offices, ICE also serves to 
notify foreign governments of any aliens that are being 
deported with a history of child--or a sexual offense or a 
child sexual offense that will be returning to their countries. 
ICE also actively seeks information from these foreign 
governments as to anyone who may be traveling here to the U.S.
    Through these offices, we've had particular success, as you 
may have heard, this past weekend about Leonard Auerbach, who 
was recently returned from Cuba to face child sex tourism and 
child exploitation charges. Within the past six months, we've 
had the return of an international fugitive, Kenneth Freemen, 
again, child sex tourism, child pornography, known for having 
molested his own family members. That particular investigation, 
ICE Special Agent Lisa Vlad received a special award from the 
National Center for Missing and Exploited Children. These are 
some of the few successes that we've had and I feel that they 
are germane to the subject and the topic at hand today.
    I thank you for this opportunity. I'd be delighted to 
answer any questions you may have.
    Mr. Hastings. Mr. Finch.

JAMES FINCH, ASSISTANT DIRECTOR CYBER DIVISION, FEDERAL BUREAU 
                        OF INVESTIGATION

    Mr. Finch. Good afternoon, Chairman Hastings and 
distinguished members of the commission. On behalf of the FBI, 
I would like to thank you for this opportunity to address the 
FBI's role in combating the sexual exploitation of children 
through the use of the Internet and technology.
    The FBI has taken an aggressive proactive posture in 
addressing the problem of child sexual abuse facilitated by the 
Internet and technology. Our program, Innocent Images, a 
national initiative, is comprised of over 40 task forces across 
the country. In addition to our national operations, we enjoy 
robust international relations that enhance our ability to 
address the crime in a global manner. Since 2004, we have 
operated an international task force from our office in 
Calverton, Maryland. Over 21 countries have participated by 
committing their officers to six months at our Calverton 
location. And through this mechanism, we've enjoyed a number of 
successes. And we continue to strengthen the capabilities of 
our international partners through training. Currently, we have 
personnel providing training in Australia and, next month, I'm 
sending a team to Poland.
    Providing training not only assists our partners in the 
investigative methodologies, but provides a liaison bridge that 
can be exploited during future investigations. My written 
testimony contains specific details and statistical 
accomplishments attributed to the FBI in this area.
    I would like to express my appreciation to the commission 
for addressing this very serious crime and thank Chairman 
Hastings and distinguished members for the privilege of 
appearing before you today. I look forward to answering any 
questions you may have.
    Mr. Hastings. I certainly thank all of you. And I sense 
that there are a significant number of activities in progress 
and perhaps it is that we don't have enough information about 
them that causes us to continue along the path of trying to 
find solutions.
    One of the disturbing things that I find, in spite of the 
extraordinary law enforcement that each of you has identified, 
is that the media, and I guess because they don't have the same 
limitations that you do, seem to go out and find these matters, 
and then you have such a poignant display of child abuse as BBC 
put forward in dealing with children in a number of countries. 
The persons who exploited them, it appears, at least from that 
crowd, nothing has been done and the United Nations says 
``Thanks for your study and we'll look at it.''
    The reason I raise this is because if there is a country in 
the world that has had a continuing degradation of its fabric 
in every aspect it were behaving and then to find peacekeepers 
allegedly sexually exploiting children, I would like to know, 
does that come under the portfolio of either or all of you--and 
I want to deal specifically with Haiti--or is it when that kind 
of thing gets uncovered, is it because the allegations are 
against the U.N. peacekeepers that it hampers you in any way 
from the activities that you all seem to do so well?
    What happens in that kind of case when peacekeepers are 
involved in exploiting children? It's gets studied, I gather. 
That's not within your gambit?
    Mr. Finch. I would say more with the State Department, sir.
    Mr. Hastings. But the State Department or any other 
division of the respective governments need enforcement 
mechanisms and tools to be able to combat this kind of thing. I 
guess it raises an issue for those of us as policy-makers 
interfacing with the United Nations. I used Haiti, but that BBC 
story uncovered issues in the Ivory Coast and southern Sudan, 
as well. And it's particularly disturbing that you would have 
people whose responsibility it is to protect somebody and then 
go in and they wind up being abusers.
    What would each of you say is the single most important 
thing that is needed to further the global cooperation that all 
three of you pointed to? Let me start with you, Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman. I would suggest that 
right now we need to get more countries' cooperation outside of 
the U.S. and several countries. We still need to have them 
realize that this is a significant problem.
    It's a worldwide problem, not just a U.S. problem, not just 
a Western problem. It's a worldwide problem and that's where I 
think we need to get that message across. It certainly can't 
come from one country and I think utilizing Interpol as a 
mechanism for training with our law enforcement partners here 
and awareness, having them be aware of the things that are 
going, because it's not just happening in any one country. You 
mentioned several and it certainly is going on in other places. 
Unfortunately, most of it, you're not going to hear about 
because it's not someone like a U.N. peacekeeper or something 
like that. It's the ones that you don't hear about and that's 
the scary part, the ones that we don't know about going on.
    Mr. Hastings. Mr. Bray.
    Mr. Bray. I would say making sure that the countries with 
which we're cooperating and partnering have a compatible system 
of laws addressing these. In many areas, this is still not 
criminal activity. To go along with that, I would say almost 
equally important would be the establishment of training in 
many of these areas. Some of these countries are expanding in 
terms of technology and their laws simply are not either in 
place or are, sadly, woefully lacking.
    In each case where we are able to establish these and we 
have outreaches, we're currently going into--we're sending a 
team into Bulgaria and Macedonia to do training. They're now 
coming online. We've spoken with countries and representatives 
of law enforcement at the federal levels in Central and South 
America, the Pacific Rim, who are now just coming to the table 
and asking for assistance. Again, I would say helping them 
build some sort of an infrastructure to work from would be 
critical.
    Mr. Hastings. Mr. Finch.
    Mr. Finch. I would have to agree with my colleagues here 
that laws pertaining to child pornography vary from country to 
country. Right now, in over 80 countries, child sexual 
exploitation is not illegal. Child pornography is not illegal. 
Bureaucracy often thwarts the ability to pass information 
efficiently and numerous other operational realities when it 
comes to addressing this crime internationally exists, but I 
think the laws, more consistent laws is absolutely necessary.
    Mr. Hastings. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
ask Mr. Bray, first of all. How does ICE learn that a pedophile 
or a convicted sex offender is traveling or intends to travel? 
Is it passive or is it better than that at this point as to how 
we get our knowledge?
    Mr. Bray. We actually get leads from many areas. We get 
leads from our partners internationally. A lot of times, they 
may be engaged in a chat or online or find information being 
posted online that indicates that we have certain proactive 
operations in which we reach out to our foreign counterparts 
through the State Department and foreign countries and we 
request this information.
    A lot of times, we find out, sadly, after the fact. But if 
subjects are arrested in a foreign country for these crimes or 
have been picked up for these crimes and we can get that 
referral through the State Department, we can then start 
assembling that case back here stateside.
    Mr. Smith. Would it be helpful if there were to be an 
international Megan's Law so that countries would be noticed 
prior to departure of a convicted sex offender?
    Our legislation would require at least 21 days prior to 
leaving and the hope is that if a country like Cambodia or 
Thailand or Romania, where this kind of exploitation is 
rampant, they simply would not allow them to come? In my 
contacts with people who run the tip offices in these 
countries, they seem very enthused at the prospect of having 
actionable information in a timely fashion to deny such entry.
    I'm wondering if you've looked, any of you, at our pending 
legislation, which is ready to go, but we are always willing to 
make any changes. It's got to move soon. I was recently in 
Brazil and went to Brasilia and Rio, and I'd say, Mr. Chairman, 
in answer to your question about, in part, you raised a very 
important point about the peacekeepers in general, Haiti in 
particular. I actually met with the people who train the 
soldiers who are then deployed, and, in this case, they are on 
their way to Haiti, and while the NGOs and the others seem to 
be very well meaning, the lack of data, there was like a 45-
minute CD with a little bit of amplification by an instructor 
and that seemed to be it. We find that that often is what 
masquerades as in-depth training for peacekeepers and it falls 
far short, obviously. It needs to be reinforced up and down the 
command. I would say, to his credit, the president, our 
president, when he initiated his zero tolerance policy in 2002, 
there has been a robust implementation of it throughout the 
chain of command and it's still not exactly where we'd all like 
to be, but it is good.
    The U.N., have a zero tolerance policy, as well, but it's 
zero compliance when it comes to implementation. That's a bit 
of an exaggeration. There are some units and some people who 
are doing a magnificent job, but, by and large, it's still 
falling short. I know it doesn't fall under your purview, but 
it is an issue that the trafficking office and others take very 
seriously.
    One of the things we did do, Mr. Chairman, in the 2005 
Trafficking Victims Protection Act reauthorization, we wrote in 
specific language that said that governments that deploy 
peacekeepers will be judged under the minimum standards as to 
how well or poorly they're doing in trying to make sure that 
people are vetted properly before deployment and if they commit 
atrocities, like they did in D.R. Congo and elsewhere, they 
will be held to account and prosecuted, and, if not, they will 
fall perhaps even into tier three.
    I think that gives an added tool. But I found, in some of 
my travels, Mr. Chairman, including Brazil, that our tip 
officers weren't even aware yet that that was a requirement and 
their data calls needed to include that. We need to implement 
that a little bit better.
    But on this Megan's Law, do you think that international 
legislation would be helpful? We know that there are a lot of 
countries that don't have databases, but our hope is that this 
will encourage the creation of databases so that they, too, 
know who it is that's committing these heinous crimes against 
their children, so we could bar them from entry into the U.S.
    Mr. Bray.
    Mr. Bray. We would do anything we could to protect children 
and certainly knowing that a violator is on his way inbound is 
extremely important. Our partners with CBP would certainly 
benefit from that. The State Department for outgoing on the 
Megan's list, as well. We have had a particular success, and 
I'd point back to law enforcement international cooperation. It 
probably wasn't a week ago, we turned back a traveler from 
Australia. We had notification that he was on their registered 
list. He had notified them prior to departure and we spoke to 
him at the LAX and gave him the opportunity to wait about 17 
hours before returning home. He was denied entry. That wouldn't 
have been possible without the notification of the Australian 
federal police.
    Mr. Smith. I would hope that you would take a good look at 
it. We did work with some people at ICE and at the tip office 
in crafting it and others. I think the sooner we get something 
like this enacted, the better. Otherwise, we've got to rely on 
tips and all. But if we systematize it, it won't be perfect, 
it'll have glitches galore, but at least we'll save more 
children from this horrific abuse.
    How does Interpol get its information about traveling 
predators?
    Mr. Williams. From our member countries, we receive 
information if a sex offender is traveling, convicted sex 
offender is traveling to the United States. They'll notify us 
through messaging and we will obviously contact ICE, CBP to 
have that individuals stopped. Usually when they know that it's 
a convicted sex offender, they'll deny the entry. If they can 
legally, they will deny and then send them back on the next 
plane.
    We work with like the Department of Justice SMART office, 
sex offender management and registration tracking office, on 
this whole new Adam Walsh Act and the new registrations and we 
hope that, in the future, that we have more interaction with 
the states as far as when they have sex offenders that are 
traveling overseas, that they can notify us.
    The state of Florida is certainly the example for the rest 
of the country right now, as far as they notify us, a simple 
message. We have a template. This sex offender is traveling to 
this address in the U.K., being there three weeks, and we put a 
message together and send it to the U.K. to let them know that 
that individuals, convicted sex offender is going to be 
traveling to there. It doesn't mean they can't travel there, 
but that country should know that we certainly want to know 
when sex offenders are traveling here and vacationing, 
teaching.
    I think the last couple weeks, we've had a few arrests by 
ICE and the Marshal's Service of teachers, coaches, camp 
counselors in various parts of the country. It's very 
disturbing when people in those kind of positions have the 
opportunity to hurt our children.
    Mr. Smith. I have a lot of questions, but I'll just narrow 
to just a final few. I wonder if you could tell us how many 
repeat offenders do you find, particularly, and the nexus 
between child pornography and the physical exploitation of 
children? Do you find a connection? Like this man that brutally 
raped and then killed Megan Kanka, he had spent more than a 
dozen years in a prison, got out and then went right back to 
his terrible deeds. Do you find that there are a lot of repeat 
offenders and they're using the Internet and these sites to 
feed on their evil?
    Secondly, the Youth Advocacy Congress and the 20 young 
people, how do they get picked? How do those young people 
emerge as interested in this? I think it's great, but I was 
just wondering who they are and how they are selected.
    On the issue of the sites, and the sites are proliferating, 
in a perverse way, the Chinese government has mastered the 
blocking of sites using Google, Microsoft, Cisco and other 
technologies that are out there, and they're trying to suppress 
religious freedom and political freedoms. We know that 
obscenity is not legal. It's not protected speech. I'm 
wondering if more could be done with the Internet companies to 
block these terrible sites, particularly as you identify them 
and know that these are where these predators are feeding.
    I'm wondering if there's a way of admonishing or maybe even 
through legislation ensuring that this kind of demoralization 
of a crime that perpetuates itself over and over again could be 
blocked, so that you do a Google search and those things don't 
show up. If you do a Google search in China, religious freedom, 
Dalai Lama, Taiwan, none of that shows up. If you do a Google 
search here for child porn and I'm sure, based on the numbers, 
the number of hits are in the millions. I'm wondering if you 
think that's an advisable course, doable technologically, 
because I think that's going after it at its source.
    Mr. Finch. Yes, sir. Technologically, it's doable. However, 
in the effort or in an attempt to block certain sites, I think 
there would be a degree of collateral damage or collateral 
sites blocked, as well.
    But it's certainly doable. Is it something I would advise? 
I think I would leave that to companies like Microsoft and 
Google who deal with that on a daily basis.
    Mr. Smith. But as you answer that, you know better than 
anyone and the teams that you work with what it is that's going 
on. There might be plausible deniability here, for the sake of 
argument, that a Google or a Microsoft their CEOs aren't 
Googling that garbage.
    Your guys see it and they know what it's doing to children. 
If the collateral damage is done, and I'm not in any fear of 
free speech ever going away in the United States, but if, for 
the sake of hundreds of thousands or millions of children 
globally, this market in the U.S., which is one of the prime 
markets for all of this evil, that would be an acceptable 
collateral damage, in my opinion, if one or two sites find 
themselves out of business while you go after these terrible 
child abusers.
    Mr. Bray.
    Mr. Bray. I would agree with Mr. Finch. I would say 
technologically possible and feasible, absolutely. You have 
tremendous minds at Google and Microsoft that could come up 
with a mechanism for handling that, working with the ISPs, as 
well. When we're looking at issues as far as collateral, I 
would want to see that technology and I'd certainly want to see 
its effect before we committed to such a thing. I've heard 
great things about it in some countries and in other countries 
it hasn't appeared to have been as effective, and a lot of it 
just depends on the mechanism in which the child porn is 
accessed there. I would say, with caution, it would certainly 
be something to be looked at.
    You asked about the International Youth Advisory Congress. 
As far as the selection of those personnel, I'd like to thank 
the National Center for Missing and Exploited Children. They 
were great partners in those selections through their school 
outreach programs. We identified, again, from around the 
country, just 20 phenomenal, outstanding students, not only in 
terms of scholastics, but in terms of their knowledge of the 
Internet and the use of computers. So we should acknowledge 
that.
    Mr. Hastings. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Again, I 
appreciate the opportunity to participate in this hearing and 
thank you for calling it. The sense that I get from the 
testimony is that one of the major goals that we have in the 
future is to begin with a lot more international cooperation. 
Is that correct?
    Are you aware, Mr. Finch, of the provision in the Senate 
bill, the one sponsored by Senator Biden, that Chairman 
Hastings referred to earlier, that allows for greater 
international cooperation between ISPs and foreign governments 
as long as proper treaty requirements have been satisfied?
    Mr. Finch. I am familiar with it, ma'am. I am not 
conversant in all aspects of that legislation.
    Ms. Wasserman Schultz. Does the FBI support that provision 
in that legislation?
    Mr. Finch. The FBI is looking at the legislation. I can't 
say that a decision has been made as to whether it is supported 
or not in the FBI.
    Ms. Wasserman Schultz. Is it fair to say that the FBI is 
leaning against that provision in that they have not been 
supportive thus far?
    Mr. Finch. I can't say that they are not supportive of the 
legislation, but I can't say with any certainty that they hold 
a firm position on this legislation right now.
    Ms. Wasserman Schultz. I'm not talking about the 
legislation. I'm talking about that provision related to 
international cooperation.
    Mr. Finch. With the ISPs.
    Ms. Wasserman Schultz. If the goal is to move forward with 
more international cooperation, it's hard to understand why the 
FBI would be opposed to a section of the bill that would do 
just that.
    Mr. Finch. I know there are some concerns about the 
legislation as far as creating possible intelligence gaps by 
the information going abroad and intelligence gaps being 
created here because we are not privy to what information or 
intelligence has gone abroad.
    Ms. Wasserman Schultz. I want to direct you to a letter 
that you wrote to Senator Biden on July 11 last year that 
indicated that the current number of personnel assigned to the 
Innocent Images National Initiative located in Calverton, 
Maryland was 32 members. Is that still the case that there's 
still only 32 people that are employed at that project?
    Mr. Finch. No, ma'am. That number is larger. The exact 
number is 40-plus, but we have also created a forensics 
laboratory dedicated to addressing only Innocent Images or 
child sexual exploitation matters. That number has increased at 
least by 10.
    Ms. Wasserman Schultz. So maybe there's 42.
    Mr. Finch. Yes, ma'am.
    Ms. Wasserman Schultz. Forty-two individuals who are 
dedicated to a problem the size and scope that we're talking 
about here.
    Mr. Finch. That's in the Washington, D.C. area at 
Calverton. That's not including the 41 undercover operations 
across the country in our field offices.
    Ms. Wasserman Schultz. In your letter, which was signed by 
you, you indicated to Senator Biden that in fiscal year '05, 
the Innocent Images project actually had to transfer $2.3 
million to the Internet crimes complaint center. There was an 
actual reduction in the funding and the number of staff that 
were at that project, according to your letter. Is that the 
case?
    Mr. Finch. Money was transferred to the Internet crimes 
complaint center, but the Internet crime complaint center 
addresses the Innocent Images National Initiative. The Internet 
crime complaint center receives complaints on child sexual 
exploitation. They package that information and they forward it 
to state, local, federal law enforcement agencies, depending on 
the nature of the report.
    Ms. Wasserman Schultz. I sit on the Judiciary Committee and 
we had Marcus Mason testify in front of our committee in 
October that the number of agents dedicated actually shrunk 
from the level the previous year. He actually said there were 
fewer agents dedicated to child exploitation investigations. I 
asked him that question myself in October in a hearing in the 
Judiciary Committee on this issue.
    Mr. Finch. That number right now, and I am going to 
approximate the number, but I think the number is in excess of 
250 agents.
    Ms. Wasserman Schultz. But is it fewer than the year before 
that?
    Mr. Finch. That I can't be certain of.
    Ms. Wasserman Schultz. According to Marcus Mason, who is 
someone that would know, I would think it was. And lastly, Mr. 
Chairman, before I wear out my welcome here. Are you aware of 
the studies that have been done by Special Agent Flint Waters 
of the Wyoming Internet Crimes Against Children Task Force that 
demonstrate that U.S. law enforcement is investigating fewer 
than two percent of the activity that exists in the United 
States?
    Mr. Finch. I am familiar with that study.
    Ms. Wasserman Schultz. And no one had disputed the accuracy 
of that study and as a result, I'm wondering if you've asked 
for more money so that you can investigate more of the crimes 
that are out there.
    Mr. Finch. I believe that tool being used in that--and I 
can't speak to the accuracy or the procedures associated with 
that particular tool being used. We use the different tools and 
different procedures.
    Ms. Wasserman Schultz. I just asked you whether you would 
ask for more money.
    Mr. Finch. As far as asking for more money--based on that 
report?
    Ms. Wasserman Schultz. Based on the fact that no one has 
disputed, in the over a year that I've been involved in this 
issue, that we are only investigating less than two percent of 
the crimes against children related to child pornography that 
are out there right now. As a result, because that doesn't seem 
like very much, I would think that the department would be 
interested in expanding their funding that they could 
investigate more of these crimes.
    Mr. Finch. And we have received additional funding for our 
Innocent Images National Initiative.
    Ms. Wasserman Schultz. Have you asked for more funding?
    Mr. Finch. Yes, we have.
    Ms. Wasserman Schultz. In this fiscal year? And I serve on 
the Appropriations Committee, so I can certainly check.
    Mr. Finch. I'd have to check with my budget person.
    Mr. Hastings. Will the gentlelady yield just a moment?
    Ms. Wasserman Schultz. I'd be happy to yield.
    Mr. Hastings. I guess put another way, do you have enough 
resources?
    Mr. Finch. The nature of this crime, you can put--as many 
resources as you can dedicate to this particular crime, we can 
use.
    Mr. Hastings. Do you have enough now? I understand that you 
could use money ad infinitum, but you also know that there 
would have to be a low threshold.
    Mr. Finch. What I normally do is look at the challenges 
facing my people addressing this and discuss with them where 
they need the resources, if they need them in the undercover 
cases, if they need them in the overseas training, and then I 
make that decision. But I can always use more resources, yes, 
sir. And as far as have I asked, we usually ask for more 
resources, sir.
    Mr. Hastings. I thank the gentlelady for yielding.
    Ms. Wasserman Schultz. Thank you very much. To conclude, 
Mr. Chairman. I realize, Mr. Finch, that you are professing to 
not know whether you are opposed to the Section 306 of Senator 
Biden's bill, but my understanding is the department and the 
FBI are opposed to that section and that your concerns are 
related to the issues that you outlined a few minutes ago.
    But it's perplexing to me, in a hearing where we're talking 
about the need to move forward cooperatively on an 
international basis, why DOJ and the FBI would stand in the way 
of the very goal that we're talking about trying to accomplish 
here, especially when you are investigating less than two 
percent of the cases here in the United States. You don't 
really ask for more resources in any kind of an aggressive way. 
You shift money around and actually reduce the amount of 
employees that are dedicated to investigating these crimes. 
There are actually 2,342 investigators in the Department of 
Justice for white collar crime and only 232 dedicated to child 
exploitation investigations, and that I know to be true.
    It's a continuing source of frustration for me to know that 
the Department of Justice says that this type of investigation 
is a priority, when it doesn't appear to be willing to back 
that up with resources and manpower. Mr. Chairman, I realize 
that I have taken an aggressive tact here, but I appreciate the 
opportunity to be here.
    Mr. Hastings. I appreciate it. Senator Smith.
    Mr. Smith. Thank you, Mr. Chairman. I'm wondering if any of 
you have an opinion on the agreement that Andrew Cuomo in New 
York, the attorney general, struck with Verizon, Sprint and 
Time Warner Cable to block sites that carry child porn and 
whether or not that might not be a model for a nationwide 
strategy by the U.S. attorney general. They came to that 
agreement last Tuesday.
    Mr. Bray. Like everyone else, I believe I saw the release 
on that. It was certainly interesting. It was a tact that 
obviously we haven't seen taken before and to be honest with 
you, sir, I'm going to be very interested to sit down and take 
a look at how that works out overall. Again, we discussed the 
fact that as far as technologies, is this available to us, what 
are the ultimate results going to be and we'll have to wait and 
see what that is. Very proactive and certainly congratulations 
to them for taking that strong stance.
    Mr. Smith. Mr. Finch.
    Mr. Finch. Blocking sites can be effective. Many sites are 
prepared for that and there are mirrored sites and they pop up 
elsewhere. Vigilance is certainly necessary when one starts out 
to block certain types of sites. Numerous techniques are used 
to avoid being blocked, certain key words, but it can be 
effective.
    Mr. Smith. But even with a shadow or mirror site it seems 
to me that if the effort were expended, and, as my good friend 
and colleague from Florida mentioned, two percent of these 
actions are being looked at and only two percent, it seems to 
me it's another weapon or another tool in the toolbox. I hate 
to say this, because I've introduced the Global Online Freedom 
Act, which Microsoft and others loathe right now because of 
what's happening in China, but reverse it and bring it here, 
I'm not as concerned about collateral damage when children are 
the victims and victims en masse.
    It seems to me that if we think even inside the box, 
because Cuomo's already doing it, and say let's take what 
works, perhaps borrow from it, improve upon it, if that's 
possible, and roll out a national strategy, and I would 
certainly hope you'd get back to us as quickly as possible on 
your reflections on it and, obviously, we'll pursue it as we've 
been with the attorney general's office here in Washington. But 
it seems to me it's like a war. If we are in a war to save 
children, you use every weapon, every bit of intelligence, 
human intelligence, every possible technological means to go 
after the perpetrators of these crimes.
    And I say this knowing that you're on the front line, 
you're doing a magnificent job every day to stop these terrible 
crimes, but I think as a policy, from a policy point of view, 
we could do more and it means going after the ISPs, going after 
these large companies. And it wasn't until Cuomo actually found 
some things that made him want to negotiate that those three 
that I mentioned were amenable to a negotiation. All of a 
sudden, they found they can do it.
    Mr. Hastings. I would appreciate an opportunity to follow-
up with you, as Representative Smith has just done, and if you 
would be kind enough to answer his questions. One of the 
things, Mr. Williams, I wish you would stress for me is, looked 
at another way, when a person is a suspect and goes into 
Interpol and it turns out that the individual hadn't done 
anything, what's the procedure for getting out of the mess? 
It's like credit reporting. Once you've been tagged--and I 
won't bother you now, so you can get to other witnesses, but if 
you would just drop me a line on that, it would be deeply 
appreciated.
    Mr. Williams. Yes, Chairman, I definitely will do that.
    Mr. Hastings. All right. I thank you all. Now we would like 
to ask our second panel, Mr. Tim Cranton, who is Associate 
General Counsel of Worldwide Internet Safety Programs of 
Microsoft, and Ernie Allen, President and CEO of the National 
Center for Missing and Exploited Children. And I thank all of 
you for being here and our new witnesses. Mr. Allen, since you 
sat down first, we will start with you.

ERNIE ALLEN, PRESIDENT AND CEO, NATIONAL CENTER FOR MISSING AND 
                       EXPLOITED CHILDREN

    Mr. Allen. Well, Mr. Chairman, you have my written 
testimony. With your permission, I'd like to briefly summarize.
    Mr. Hastings. Without objection.
    Mr. Allen. First, let me thank you and Mr. Smith for your 
great leadership on our issue. We had the honor to work with 
you on at the last Parliamentary Assembly at the OSCE. You led 
the charge that passed a resolution that we believe is changing 
law across the region and there's going to be another 
resolution at the upcoming meeting in Kazakhstan. I wanted to 
report to you that it is having impact and to thank you for 
your efforts that made it possible.
    Let me briefly report to you on behalf of our two 
organizations, the national center and our sister organization, 
the international center. The national center's longest running 
program to address child sexual exploitation is its 
congressionally-mandated cyber tip line. The 911 for the 
Internet serves as the national clearinghouse for investigative 
leads and tips regarding crimes against children on the 
Internet. The cyber tip line is operated in partnership with 
the FBI, ICE, the Postal Inspection Service, the Secret 
Service, Child Exploitation and Obscenity Section at the 
Justice Department, and the Internet Crimes Against Children 
Task Force program. Reports are made by the public and by 
electronic service providers who are required by law to report 
to the cyber tip line. Our analysts review them, evaluate the 
content, do additional public search, use search tools to 
enhance, to determine the geographic location of the apparent 
criminal act, and provide that information to the appropriate 
law enforcement agency for investigative follow-up.
    Next week, we will receive our 600,000th report since the 
creation of the cyber tip line in 1998, more than 100,000 
reports last year alone, and we're on track for 120,000 this 
year. In addition, the electronic service providers have 
reported to us more than five million images of sexually 
exploited children. The categories in which we're receiving 
those reports are all going up. In 2007, we saw an increase of 
23 percent in child pornography reports, 66 percent in online 
enticement of children reports, 58 percent in child 
prostitution, 10 percent in child sex tourism reports, nine 
percent in child molestation reports, and a 31 percent increase 
in misleading domain names.
    ICE forwards those cyber tip line reports about child 
pornography to law enforcement agencies in other countries and 
ICE attaches stationed abroad access our cyber tip line via a 
virtual private network and, under this system, law enforcement 
in 21 countries receive those reports, and we're currently in 
discussions with law enforcement in three additional countries. 
The cyber tip line also receives reports from members of the 
International Association of Internet Hotline Providers, 
INHOPE. To date, members have sent almost 50,000 reports of 
apparent child pornography to our cyber tip line and there are 
currently 33 INHOPE hotlines in 29 countries.
    Another national center program is our child victim 
identification program. Our analysts work with our federal law 
enforcement partners to help prosecutors get convictions by 
proving that a real child is depicted in child pornography 
images and, secondly, we work with law enforcement to locate 
and rescue those child victims. To date, our analysts at the 
national center have reviewed 14 million child pornography 
images and videos, seven million last year alone. We share 
these images with international law enforcement officers who 
provide vital information that helps us identify and rescue the 
children.
    We're also attacking child sexual exploitation in 
partnership with industry leaders, much as Mr. Smith raised in 
the last round of questioning, through our technology 
coalition, which includes AOL, EarthLink, Google, Microsoft, 
United Online and Yahoo. We are working with those companies, 
including Mr. Cranton, to try to develop and deploy technology 
to identify those specific illegal images in order to disrupt 
their transmission. And let me interject here, 95 percent of 
the content out there is out there forever and what we are 
doing is trying to develop a database of those digital 
fingerprints, hash values, so that we can identify the 
transmission of identified unlawful images.
    We're also working on an initiative with electronic service 
providers and international law enforcement to limit access to 
Web sites containing child pornography. Our cyber tip line 
analysts identify active sites with illegal content and compile 
a list of those sites' uniform resource locators, the URLs. As 
you mentioned, last week, we entered into an agreement, through 
Attorney General Andrew Cuomo in New York, to provide that list 
of URLs to the three participating companies in that agreement. 
We're currently providing it to 14 companies and similar 
techniques have been used for some time in the United Kingdom, 
in Sweden, in Norway, in Denmark, in Canada. Last week, French 
authorities announced that they were going to take steps to 
block those images. We think this is an important step for us 
to explore here in the United States.
    Our national center and our international center also 
coordinate the Financial Coalition Against Child Pornography, 
whose goals is to eradicate commercial child pornography. 
Currently, that coalition is made up of 30 companies, including 
MasterCard, Visa, American Express, Bank of America, Citigroup, 
Internet industry leaders, like Microsoft, and others that 
represent 95 percent of the U.S. payments industry. Based on 
tips to the cyber tip line, the national center identifies Web 
sites containing illegal images with method of payment 
information attached. We forward this information to law 
enforcement, which makes purchases on a particular site, 
enabling law enforcement to identify who and where the merchant 
bank is, where the account resides.
    If law enforcement does not proceed with an investigation, 
we are notifying the financial company and they are taking 
action based on their terms of service agreement. Already we're 
seeing progress. In less than two years, credit cards have now 
virtually disappeared as a method of payment for this kind of 
content and the purchase price of the content has increased 
dramatically. We are now working to expand the financial 
coalition on the international level. We have discussions 
underway in the Asian Pacific region and the European Union is 
currently considering the creation of a similar coalition. On 
the international level, in partnership with Microsoft and in 
conjunction with Interpol, we are also trying to build law 
enforcement capacity around the world. Thanks to Microsoft's 
support, we have trained law enforcement officers from 111 
countries in how to investigate computer-facilitated crimes 
against children. The goal is to build a worldwide cadre of 
experts that we can mobilize to attack this problem.
    I know this is a daunting challenge, but let me just 
briefly mention a few recommendations. First, you worked with 
us as a result of our 2006 report reviewing the law on child 
pornography in the 186 member countries of Interpol. As you may 
recall, in 95 of those countries, there was no law at all. In 
135 of those countries, they did not criminalize the possession 
of child pornography. We were honored to have the opportunity 
to work with you, but the challenge remaining is daunting. Two 
countries criminalized the possession of child pornography last 
year, Costa Rica and the Czech Republic. There's a lot more to 
do.
    Second, we need to make crimes against children a priority 
on the national agendas of so many more of these countries. 
Even when countries have adequate child protection law in 
place, and most do not, if these countries don't make this a 
national priority, law enforcement will struggle to investigate 
the crimes without sufficient funding or proper infrastructure. 
Lots of governments are focusing on financial crimes and 
terrorism, not realizing that child sexual exploitation 
contains elements of both. We think we need to educate 
governments and work with the regional organizations.
    Third, despite the progress that we've made, we believe 
that we need additional training for law enforcement around the 
world and this needs to be a topic for discussion at more 
international conferences. There needs to be a forum for law 
enforcement and government officials to share best practices 
and discuss ways to cooperate and share information more 
effectively.
    Fourth, those countries that have built the capacity need 
to be encouraged to coordinate with ICE so that they're able to 
receive our cyber tip line reports via the VPN. These cyber tip 
line reports contain lead information about crimes against 
children that are being committed abroad, that are being 
committed all over the world, and law enforcement agencies can 
and must use them to help prosecute offenders in their own 
countries.
    Fifth child sex tourism is a devastating problem and 
continues to grow in many new countries. We need to ensure that 
the necessary resources are provided to these countries where 
children are most at risk, and those resources can be used for 
public education, for counseling, for medical services for the 
victims, for law enforcement, and, to the extent possible, 
international law enforcement needs to share information that 
would enable them to better track these offenders who move from 
country to country in order to get access to these children.
    Finally, we were very pleased that the United States Senate 
ratified the Council of Europe's convention on cybercrime. We 
think it's an important step forward. More countries need to do 
it.
    Mr. Chairman, I don't have a lot of easy solutions, but 
we're thrilled by your leadership and eager to be of 
assistance.
    Mr. Hastings. Thank you very much, Mr. Allen. You were very 
clear. I appreciate the fact that you gave us recommendations 
that we can certainly build on, and that's very much 
appreciated by you. In addition to the fact in a number of 
places, Chris Smith doesn't have any peers here in Congress in 
dealing in human trafficking. Many of us support his efforts. 
But it is good to know and I'm sure he was pleased, as he is 
here, to know that when we do these resolutions, like we did in 
Brussels, that somewhere along the line, it may have an impact.
    Sometimes we don't get to feel that impact, because the 
problem is so huge. Thank you again for that testimony. We'll 
have questions in a few minutes. Mr. Cranton.

  TIM CRANTON, ASSOCIATE GENERAL COUNSEL, WORLDWIDE INTERNET 
             SAFETY PROGRAMS, MICROSOFT CORPORATION

    Mr. Cranton. Thank you, Chairman Hastings, Ranking Member 
Smith. I'd like to thank you for allowing Microsoft to speak 
here today, specifically to address what industry can do to 
help advance law enforcement information sharing 
internationally.
    I'd like to recognize, first, and express gratitude for 
both of your leadership in this area and for helping advance 
this very important issue, particularly on a global and an 
international level, because we feel that's the right way to be 
looking at this, as a problem, and recognizing that these 
crimes are global and that we need to develop global solutions 
to address them that enable the type of information sharing 
that can capture the criminals that are involved in child 
exploitation issues.
    It's also much a privilege for me and for Microsoft to 
share the panel with Ernie Allen, who is truly a visionary in 
advancing global cooperation both through the national and 
international centers, which are model child advocacy centers 
around the world, and we're delighted to be here to share in 
this conversation.
    I've submitted detailed testimony that goes through a 
broader explanation of Microsoft's approach as industry in 
advancing this information sharing and advancing this issue.
    What I'd like to focus on today is one specific topic and 
that is how industry can do what it does best, which is develop 
technology or at least the IT industry, to try to make a 
difference here and to develop technology solutions that can 
really help facilitate across all the different stages, and Mr. 
Allen has outlined it really well, from the service provider 
through to the clearinghouses and then on to law enforcement 
and having a very effective information sharing mechanism and 
technology tools across all three of those stages is critical 
for success here, and that's where we feel industry can make a 
real difference.
    If you'll indulge me for a minute, I have PowerPoint slides 
and would just like to very briefly walk through a scenario 
relating to a tool that we have developed, called the Child 
Exploitation Tracking System, also known as CETS.
    When CETS was first developed, the vision or the aspiration 
of the tool is to create this global information sharing 
community among law enforcement.
    The demonstration that I'll provide is hypothetical and 
aspirational and this is where we're trying to go. This is what 
we hope eventually technology can enable.
    Very quickly, CETS is a tool for law enforcement. It was 
developed directly in conjunction with law enforcement not only 
to help them manage their investigations, law enforcement is 
very familiar with case management systems, but we tried to add 
some additional functionality on top of that that would really 
enable law enforcement to share information across agencies and 
across national boundaries and to search that information.
    Once you build this global database of information, any 
time that an investigation occurs, you can be searching across 
all the various pieces of information in those investigations. 
To bring those law enforcement agencies together. That's what 
the tool is designed to do. What's very critical, and it's been 
mentioned several times during the hearing, is the legal 
framework. This is a technology tool that enables this. But the 
only way that it works is if the legal framework is in place 
that enables the law enforcement sharing, especially when you 
start talking about global law enforcement sharing.
    We've designed the tool so that it actually has different 
levels of sharing to try to facilitate the complexities that 
occur across countries. There are three levels of sharing that 
you have. You can have no contact sharing. If there are two 
countries that are contributing into the CETS system that don't 
have legal agreements in place or don't have the level of 
trust, they can say, ``We're not going to be sharing 
information between those two countries.''
    Secondly, you have contact level sharing. There might be a 
certain level of understanding or trust between those countries 
or those agencies and they would say, ``We would prefer not to 
actually give access to our investigative database, but what 
we'd like to have is, if there is a link between 
investigations, to just identify and flag it on a contact 
basis.'' And then there's extended information sharing, which 
essentially reflects a full trust and sharing of investigative 
details between agencies. I'll very quickly walk through an 
example of how this might play itself out.
    In this particular scenario, there's a police officer in 
Vancouver, in Canada, which is one of the countries that has 
deployed CETS, and they get a tip from an ISP, a service 
provider, of an image, a known child pornography image. This 
officer would go into CETS, and this is the homepage that they 
would see, and they'd click on the ``import image'' screen. 
When they do that, they're able to upload the image. A new 
functionality that we've built in here is actually that image 
can then be searched across the entire database. You can see if 
there's any other investigation that involves that same image 
and that would be triggered.
    In this particular case, the image doesn't trigger, but 
there is the computer address that has been added into the 
report from the law enforcement officer. In this case they say 
there's been a child pornography image across our services and 
it looks like it's coming from this computer that's located in 
Europe. Then the officer can actually update the report to 
reflect that fact and to reflect the ISP and actually make a 
referral to the law enforcement agent in Europe. Then they 
enter all these information in. They enter that IP address and 
flag it for that other law enforcement agent in Europe. That 
when the Europe police department opens up CETS that next day, 
they see in their notification, ``Oh, there's a case that you 
might want to look at.'' In this scenario, they would actually 
be able to subpoena the service provider in their jurisdiction 
and find out who the individual is that belongs to that IP 
address. Quickly wrapping that up, then in this scenario, once 
the record has been update with that name, again, it does a 
complete search and, in this particular case, for example, if 
that individual was suspected of sex tourism in Asia and there 
was an open investigation relating to that, it would trigger 
the link.
    This is an example of contact only information, so they 
might not have an agreement to share their data, but at least 
they now know, ``Oh, there is actually an active investigation 
in Asia that relates to this.''
    Ideally, what you then have is what started as a report 
from a service provider in Canada linking back through to the 
actual abuse that is that image that's happening, that's being 
displayed in Canada, and you find the person who's committing 
that abuse and hopefully save that child and arrest the 
perpetrator. That's the ideal and that's where we'd like to go.
    Today, how far we are along in getting to that vision, CETS 
has been deployed in eight countries, Canada, Brazil, Chile, 
Indonesia, Italy, Spain, United Kingdom and Romania. There are 
several other countries that we are in kind of launch 
deployment phase, as well. We have now over 850 investigators 
worldwide who have been trained and are active users of CETS in 
the 173 different locations. Microsoft has made a significant 
investment in this over $10 million to develop the CETS 
technology and then to support the deployments, as well as to 
donate all the software associated with the deployments.
    We also have an ongoing commitment to continue to donate 
the software and to support global deployments and what I call 
kind of the software development life cycle, where we will 
continue to come with upgrades to CETS and to fix bugs as they 
arise and to support the technology worldwide.
    That's the end of the demonstration. I think Mr. Allen did 
an excellent summary of kind of in addition to technology 
tools, what we should be looking to as solutions, because 
technology is only as good as the system that uses it. We do 
need to have those minimum laws in place, defining child 
pornography in a consistent way and providing for information 
sharing across law enforcement agencies.
    I would add one additional point from an industry 
perspective is the need for laws that help support the industry 
sharing of information, including safe harbors or immunities 
for industry when they do want to be proactive on these issues, 
because a lot of reluctance around child exploitation cases is 
the radioactive nature of child pornography and child 
exploitation images. It's very helpful to have clear laws that 
empower service providers to be proactive in addressing these 
issues.
    With that, I thank the commission for the opportunity to 
speak here today and I'm happy to answer any questions you 
might have.
    Mr. Hastings. Thank you very much, Mr. Cranton. In your 
opinion, does U.S. law enforcement take full advantage of your 
Microsoft Groove system that you mentioned?
    Mr. Cranton. We work closely with law enforcement across 
the U.S. and we have some law enforcement that use the Groove 
system to share information. We also have been working with 
them around the CETS technology to see if we could develop a 
solution for the United States that would deploy the CETS 
technology in the U.S., which is a priority for Microsoft to at 
least support some type of technology solution.
    It's important. CETS itself is every interoperable with 
other systems. If we can piece together or put together the 
right solution, we'd be delighted to support that.
    Mr. Hastings. What about your new computer online forensic 
evidence extractor, COFEE?
    Mr. Cranton. Yes. That's still in beta form, but it's been 
a huge hit with law enforcement. We've been distributing it 
widely to U.S. law enforcement, as well as law enforcement 
around the world. There's now over 2,000 officers who are using 
the COFEE tool, which is a simple tool that just enables them 
to extract information from a computer while it's still 
running. If they come to the scene of a crime, they don't want 
to shut the computer down. They want to be able to capture the 
information right there.
    Mr. Hastings. Mr. Allen, you have followed developments in 
the OSCE countries quite closely and Chris and I have had an 
opportunity to work with you and those that you work with, 
particularly in terms of the legal framework and law 
enforcement.
    The two are interrelated, as you mentioned in your 
testimony. Which of the countries would you point out, when you 
speak of some countries having national priorities that 
encapsulate this, others do not, which countries do you think 
are in particular need of encouragement?
    Mr. Allen. There is a particular need in the Eastern Bloc. 
We have spent a good deal of time, including at our meeting in 
Brussels, meeting with the delegation from the Russian 
Parliament and we met with others from Eastern Europe. 
Historically, the role of organized crime in that part of the 
world has been significant in this area. I would think 
certainly that is a key area. Of the 56 OSCE countries, the 
countries that are not members of the European Union, by and 
large, lack the kind of law that we think is necessary.
    On the positive side, the United Kingdom has played an 
extraordinary leadership role in this area. We work very 
closely with the French and the Belgians, who are also, doing 
important things in this regard. The point I would make is when 
there are 186 countries in Interpol and 135 of them have yet to 
criminalize the possession of child pornography, it's far 
easier to point out the ones where there's need than the ones 
that are doing all the things we think they should.
    It's a long list.
    Mr. Hastings. Does the fact of a lack of computer and 
technical equipment come into play in your training process and 
what do you do?
    Mr. Allen. Absolutely. One of the big challenges that we 
faced, and with the support of Microsoft, in training law 
enforcement, building a cadre of experts, is that in many of 
these countries, law enforcement doesn't even have computers.
    How do you investigate computer crime? We're trying to work 
with them simultaneously and help them get the tools they need, 
at least in a targeted way, that those specialists can work 
these investigations. I came from a meeting in which law 
enforcement indicated that 80 percent of these sites are still 
hosted in the United States and one of the reasons why we 
believe that the United States remains a priority area of need. 
A member of the Russian Parliament said to me at that meeting 
in Brussels, ``We'll help, but you've got to do something about 
the demand,'' because the reason organized criminals are 
involved in this activity is not because of any sexual 
predilection for children, it's because it's profitable.
    It's easy and it's profitable. So because of the 
penetration of technology in this country and because of high 
speed and broadband and the ability, we're now finding images 
on computers with terabytes of data.
    The forensic challenge for law enforcement is huge. This is 
truly--and I think it's why your hearing is so timely. This is 
not a problem that any single country, including the United 
States, can attack alone. It really requires global approaches 
and global solutions.
    Mr. Hastings. How much of a barrier is language to 
cooperation or access to international databases?
    Mr. Allen. I think it's a barrier, but I think it's 
becoming less so. We've worked very closely with Interpol that 
communicates in six languages and we've found--and one of the 
things we've tried to do in our training with Microsoft is not 
do it in the usual places, not conduct it in London and Paris. 
We've done the training in Beijing. We've done it in Bangkok. 
We did it in Bucharest. We've done it in Vilnius. We've gone 
places that traditionally have not done this kind of training 
and we have found enormous receptivity and enormous commitment 
to try to do something about it.
    Mr. Hastings. That's certainly illuminating and both your 
testimonies have been, as well. In advance of my having to 
leave, I have to go to the Rules Committee in just a few 
minutes and I just want to personally thank both of you for 
some of the most poignant testimony on this subject and you've 
given us sort of a guide as policy-makers that we can now go 
forward and try to assist better and some things that perhaps 
we can do that will assist in implementing many of the things 
that you are doing and to find some resources to fill some of 
the gaps that might exist out there.
    It is an area of prominent concern, but regrettably, it 
competes with a significant number of areas of prominent 
concern here in this institution and, for us, sometimes things 
aren't moving fast enough.
    It's good to know that what we are doing can and does have 
some impact and I look forward to Kazakhstan in July, where 
Chris will take the lead and our delegation will be very 
insistent that these matters continue to remain the highest 
priorities of the participating states. But we're operating in 
that 56 participating limited sphere and it's a big old world 
out there, where this ongoing crime against children is taking 
place.
    My personal thanks to both of you, and we will be able to 
follow-up. And I'm going to leave the remaining portion of the 
hearing in the hands of my colleague, chairman, Ranking Member 
Smith.
    Mr. Smith. Mr. Chairman, thank you very much. I want to 
thank you for your leadership and for especially calling this 
very timely and important hearing so we can move the ball 
further down the court. I deeply appreciate your leadership on 
this.
    Let me ask you, Mr. Allen, first. You talked about the tips 
and how many tips are conveyed to law enforcement. I'm 
wondering, do you have confidence that those tips are being 
properly investigated? Are jail sentences being meted out that 
would be commensurate with the crime? Are people going to jail 
that should?
    You mentioned 14 million images and someone at some point 
looks at some, but hopefully not all of those sad and tragic 
images, but I know that when we talk to people who go to mass 
graves, the pathologists and coroners have to deal--I mean, 
they steel themselves against what they're looking at, knowing 
that it's for the greater good, whether it be in Srebrenica or 
some other place where genocide has occurred.
    When you're talking about these crimes, which are ongoing, 
it has to take a toll on your staff and the staffs of people 
who are looking at this in law enforcement. I'm wondering, how 
is that dealt with?
    Mr. Allen. It's very demanding work and, in my judgment, 
it's heroic work that these young people are doing. We do have 
a program at the national center called Safeguard, in which we 
have a psychologist who comes in weekly, who does group work 
with these folks, as well as available for individual work.
    What we have found is that the motivation and the success 
that flows from that work overwhelms the horror and they tell 
me that what these analysts do is learn to look past the child. 
They look past to the child to the background. They look for 
unique identifiable characteristics. In many ways, it is needle 
in a haystack type work. We are working with law enforcement 
all over the world, because these children could be anywhere.
    Our goal in the work is to place the child somewhere on 
planet Earth and then to provide cropped images and the 
additional information to the appropriate law enforcement 
agency so that they can locate the child. We are being 
sensitive to that. I don't minimize the difficulty of it, but I 
think that the answer to the first part of your question flows 
from the second part. That is, in our judgment, the sentences 
that are happening today are the most significant at any time 
in our history. The law certainly in the United States and 
other countries has caught up and serious sentences recognizing 
the seriousness of these crimes are being provided.
    Congresswoman Wasserman Schultz talked about the reality 
that there are so many offenders. Can we possibly investigate 
and prosecute all of these people? In our judgment, the answer 
to that is, no, we can't, just like the war against drugs and 
other recent problems. What we try to do, even with our cyber 
tip leads, is triage them. We try to determine is the child 
currently being harmed, is a child at immediate risk, and those 
get the priority.
    The other reason why some of these other techniques, none 
of them panaceas, but if there are simply too many offenders 
for law enforcement to deal with then what we've tried to do is 
to develop some parallel tactics, like following the money and 
trying to eliminate the profit motive, shut down the commercial 
side, like following up to what that Russian senator said, 
you've got to do something about the demand, using appropriate 
legal constitutional tools to keep images that are not 
protected speech, according to the Supreme Court of the United 
States, from reaching the computers of would be consumers, 
using technology innovation Microsoft and others are providing. 
I think it's a complex attack, but I think you can't do it on 
one front alone.
    The other point I would want to make, to what Congresswoman 
Wasserman Schultz said earlier, is we agree with her point. Mr. 
Finch and Mr. Bray sitting here representing those federal law 
enforcement agencies can't say to you that they need more 
resources, but they do. We need more people to do the work. We 
need more forensics capability simply because of the enormity 
of the challenge, and my hope is that Congress can get them 
some additional help.
    Mr. Smith. Let me ask you. How do they pay, the exploiters, 
if they can't use their credit cards?
    Mr. Allen. They're gravitating in other means. There are 
customized payment mechanisms, third-party payment, alternate 
payment systems. In a meeting this morning, we learned that--
that this is a multibillion dollar industry. Some leaders in 
law enforcement think, because of the efforts attacking 
commercial child pornography, that it's now a multimillion 
dollar industry, that it's gotten a lot smaller. Some of them 
are paying cash. They're wiring money. Our goal is to make it 
so difficult and so burdensome for these folks to make money, 
that they will gravitate into some other illicit enterprise 
where it's easier.
    Mr. Smith. Is Western Union brought in and others where 
money is wired?
    Mr. Allen. Western Union is a party to our financial 
coalition. They are working with us to try to deal with--and 
our goal from the beginning was--we were skeptical that this 
was an enterprise that could survive if it was solely dependent 
on cash payments, and I think we're seeing that.
    Mr. Smith. Let me ask you. As you can see, the effort here 
couldn't be more bipartisan. But there was a time when that 
wasn't the case, and I'd just back up for a second.
    I don't know if you know this, but the original Meese 
commission was my idea and Frank Wolf's idea. It was even 
before Meese became attorney general. William French Smith was 
the attorney general at the time. It took us six months to 
persuade the White House that this was something that the old 
ACLU, which was Nixon and, before that, Johnson, but Nixon 
finally got the final product, saying there's no connection 
between abhorrent behavior and pornography, including child 
pornography, was a farce, it was based on incredibly faulty 
data and science.
    What the Meese commission found, after 18 months of 
probing, that it was a multibillion dollar industry that was 
feeding demand and leading to rape, a desensitization to rape, 
and the exploitation of children. We went through eight years 
where our child porn statutes were not enforced and front line, 
of all things, ``PBS'' did a very, very incisive commentary, a 
two-hour piece on the fact that it was an engraved invitation 
for these pornographers, particularly child pornographers, to 
just proliferate and, with the rise of the Internet, it became 
a multibillion dollar industry. We're almost like doing 
backpedaling to try to catch up to lost years and, as you said, 
once it's on there, it's there forever. There were the eight 
years of the Clinton administration.
    This is not something that's partisan. It's a matter of 
fact. I offered a resolution challenging the Knox decision, 
where the prosecutorial strategy by the U.S. government was to 
side with the pornographer and say that lascivious behavior has 
to emanate from the child rather than the intent of the 
photographer. It was nuts, in my opinion, and it passed 
unanimously in the House and the Senate. We lost precious 
ground there and I'm wondering, with
9/11, with all the other problems we had, whether or not we 
also lost some years in the early Bush administration when it 
comes to these crimes, where more money and resources and 
hurry-up offense could make a difference.
    I wonder if you could answer that, because I think Frank 
Wolf has tried desperately to get more money into this effort, 
particularly when he was chairman of State Justice and Commerce 
Appropriations Committee, but we need to know from the experts 
like you how much more.
    I know many of those who can testify are always bound by 
OMB as to what it is that they can ask for and I appreciate 
that, but we need to know what the upper limits are to really 
wage war against these predators.
    Mr. Allen. My response to you is that I think the nation 
has awakened to the problem. I think as it relates to child 
pornography, we've had to overcome the perception expressed by 
many about isn't this just adult pornography, aren't these 20-
year-olds in pigtails made to look like they're 15. What we 
found, as a result of those 600,000 reports and those 14 
million images that our staff has reviewed, is that 
overwhelming these victims are prepubescent children and 
they're getting younger and younger. This is not the problem 
that America thinks it is. We know what the demands are on 
federal law enforcement as it relates to homeland security and 
the fight against terrorism and all of that.
    In our judgment, this is domestic terrorism and, in our 
judgment, and my friends at the FBI and ICE and other agencies 
may shudder when I say this, but I think they badly need more 
resources. I don't know whether law enforcement is only able to 
work two percent of the cases or five percent of the cases or 
20 percent of the cases, but whatever it is, what they've tried 
to do, as law enforcement always tries to do, is to focus on 
those most responsible in the key positions where they can have 
the greatest impact with their investigations.
    I think Innocent Images and the work done by the Cyber 
Crime Center at ICE, I think the work they've done is heroic. I 
would argue that America has awakened to this problem and that 
now is the time to generate more resources and more help for 
those agencies so that we can have more impact on it.
    Mr. Smith. Let me ask you, Mr. Cranton. First of all, thank 
you for the initiative, the CETS initiative. That is certainly 
an extraordinary initiative on behalf of Microsoft. I have a 
couple of questions about it.
    I'm wondering, you mentioned the eight countries, and I 
think that's a great start. Russia was not on it. I'm wondering 
if there's a contemplation of putting them on it, because so 
many images do emanate from that country. I'm wondering whether 
or not the Gates Foundation, which probably has more money than 
virtually any other foundation in the world, and they do 
wonderful work in the area of HIV/AIDS and other things, 
whether or not some of their charitable work is being targeted 
at developing countries to help the information.
    I would note, parenthetically, Sheri Rickert and I were in 
Nigeria a year and a half ago on a human trafficking trip and 
they have a tip office. They do wonderful work. They are 
certainly dedicated. They absolutely lack the infrastructure. 
Their police can't talk to each other. They got a donation from 
the Italians that wasn't compatible with their existing 
hardware. They want to do better. They don't have the resources 
and they have a serious problem of child exploitation in 
Nigeria and a serious problem with trafficking, and the two 
usually go hand-in-glove.
    I'm wondering if this is something the Gates Foundation 
might be contemplating making some significant contributions 
towards.
    Mr. Cranton. Thank you. With respect to Russia or other 
countries, our approach has been to make the technology 
available to law enforcement and there is an advisory committee 
of the law enforcement agencies who have adopted CETS that we 
treat as more of the decision-making community that supports 
the CETS deployment.
    Certainly we would support technology deployments in Russia 
if they were appropriate and if the law enforcement kind of 
community making those decisions was comfortable with how the 
deployment would go.
    As I mentioned, we have the different information sharing 
and what's critical is that you can bring it together in an 
effective sharing across different countries.We try to stay 
somewhat out of the business of deciding who gets CETS or who 
doesn't get CETS.
    In terms of the Gates Foundation Microsoft is in the 
position of any other entity who wants money from the Gates 
Foundation and we could submit a request along with everyone 
else. However, the point is very well taken and on the 
infrastructure side, we have a program called Unlimited 
Potential which reaches out, in particular, to developing 
countries to help build the technical infrastructure that, in 
particular, has been used for trafficking situations in South 
Asia-Pacific region and is an excellent resource to look for 
the kind of infrastructure growth, bringing the countries to 
the point in which you can actually deploy CETS.
    I mentioned Indonesia as one of the countries that we 
worked with and certainly one of the biggest challenges that we 
faced there was trying to get the infrastructure in place that 
enables the information sharing. When you start looking at some 
of those countries, you're absolutely right, we need to look to 
other sources and Unlimited Potential or some of the other 
things within Microsoft itself are programs that we look to 
help support that type of infrastructure building. And then, of 
course, we'll always submit a request.
    Mr. Smith. I hope you do, because I think you would get as 
much as you ask for.
    In terms of Brazil, that's one of the countries you 
mentioned, I met with a number of their people in law 
enforcement, their parliamentarians and other people, their 
ministries, about the whole child pornography and child 
prostitution issue. Our tip reports suggest there may be as 
many as 500,000 child prostitutes. Many people there told me, 
including their NGOs, they thought it was closer to 250, but 
may be more. Nobody has a census on it. But it's mostly 
Canadians, Americans and Europeans that are flying in and 
exploiting the kids. I'm wondering this goes to the importance 
of notice, like our international Megan's Law idea.
    I wondered how your initiative helps with that problem, 
because they seem overwhelmed. The NGOs I met with were very 
street savvy and very computer literate, but they lack 
resources. I'm wondering--and that was the NGOs and certainly 
the government could do better in terms of money.
    Mr. Cranton. It has the capabilities of doing that. When 
you look at the CETS tool, it can be treated as an 
investigative database across different issues and has the 
ability to track individuals, search. If you have, for example, 
registered sex offenders, you can enter that information into 
the CETS tool and we've built in the Microsoft Virtual Earth 
technology into CETS so you can actually have the ``show map'' 
function. If you had an incident, for example, you can pinpoint 
the address of that incident and even do a ``show me all known 
sex offenders within two miles of that point.'' It's only as 
good as the information that's entered into it, but it 
certainly has the functionality that advances those types of 
reviews.
    Now, I think there are other databases that are managed 
through Interpol that are probably better positioned for some 
of the other type of information sharing. So we always kind of 
look at what our tools can do to complement existing databases 
and solutions.
    Mr. Smith. I have a lot of questions, but I'll narrow it to 
just three final ones, since the time is late, and you've been 
very generous with your time. The issue of Verizon, Sprint and 
Time Warner and their agreement with Cuomo, is that something 
Microsoft has done, will do, is contemplating?
    I asked earlier about the capability to simply block site 
and to--even if we err on the side of something, collateral 
damage, as was mentioned earlier, being swept into that, it 
seems to me the good outweighs the potential loss of one site 
or even several ties being swept in as opposed to this horrific 
crime that's being committed.
    Is that something Microsoft would consider doing? Is the 
capability there in the first place?
    Mr. Cranton. I think that there are two areas. There's 
blocking sites that have known child pornography images or URLs 
that have been identified by law enforcement or by government, 
which is critical, and then there's other filtering 
technologies that could be addressing the actual images 
themselves.
    Taking them separately--and I think the New York settlement 
might have addressed both of those. We currently do have a 
system where we are blocking URLs that are provided to us from 
the Internet Watch Foundation in the United Kingdom and we are 
very open and in discussions to extend that also to track along 
with voluntarily working with the national center to do that.
    We've built it into our search technology. It's different. 
When you look at the entities who entered into that agreement, 
they're offering different types of services than our core 
services. You need to think how you would be able to extend a 
similar type of blocking to our services.We're definitely open 
to coming up with something.
    Then when you get to the actual image detection, there's 
two technologies that we are looking at. First, kind of the 
hashing technology that takes known images and kind of applies 
this algorithm to it so that you can actually filter out known 
images without having to have possession of the images, which 
is one of the challenges industry faces.
    We're currently exploring and working on developing a 
system to do that with the known images, in partnership with 
the national center and through the technology coalition that 
Mr. Allen mentioned, which is other companies also working 
together to implement these types of solutions. The problem is 
that exact matches are difficult, because images get resized. 
The Microsoft research team has developed what's called fuzzy 
hash technology, or at least that's what I call it. They are 
more technical in describing it, but essentially it tries to 
capture the essence of images and capture matches through a 
similar type of technology, but without requiring exact 
matches. We made that technology available royalty-free to the 
technology coalition. There are many patents that are built 
into that, but we are sharing it across the industry. Now we're 
just looking at how we can effectively implement it into our 
systems so that it could be useful or helpful.
    We are doing a lot of different things around both sides. 
The challenge is coming up with something that's effective that 
removes those images, because certainly, from our perspective, 
our goal is to get this stuff off our systems.
    Mr. Smith. Sure. Let me ask you. Censorship is something 
most Americans bristle at. I don't like censorship, none of us 
do. But I don't think this is censorship. This is protection.
    In China the Internet companies are censoring especially 
Google, and you might not want to take a shot at Google. But I 
asked them, in a hearing on the Global Online Freedom Act, 
three years ago, and we've been working ever since, what is it 
that you censor, how do you do it. If you go to China, you're 
blocked from getting information. I mean, there are some that 
think they can pierce the firewalls, but it's questionable 
whether or not that technology is working. But all these taboo 
things, like the Falun Gong, like Catholics, the Uighurs, are 
all not only off limits, you type that in, somebody will visit 
your home from the secret police.
    They have 35,000 cyber police working the problem against 
religious freedom and peaceful democracy promotion. They've got 
this incredible network interlinked with the police to find the 
best and the bravest and the brightest of China. It seems to 
me, if the technology works there, without violating our civil 
liberties, we could do more to block this kind of thing here. 
Is that Pollyannaish on my part or is it--how do they do it? 
They won't tell me. They say they can't reveal both the means 
and what it is that they're censoring in China.
    But the human rights activists, and one of them was just 
here, Harry Wu, on a totally unrelated issue that he brought 
some stuff over on, spent 20 years in lao gai in China, they'll 
tell you that the list of things that are off limits pursuant 
to government policy there is legion and, as a direct result, 
all of this information never gets to the students. They don't 
know what's going on in the world. They block ``Radio Free 
Asia,'' ``Voice of America.'' And if it can be done there, why 
can't, for a noble cause like this, we can't do more of it 
here?
    Mr. Cranton. The parallels and the complexities are evident 
in that description.
    Here we have a situation where we know that Microsoft and 
industry wants to partner with law enforcement in order to stop 
child exploitation and we need to, and then, on the flipside, 
we need to be very careful to protect freedom of expression and 
civil rights. Industry is in the position of trying to find 
that right balance in the things that we do and because there's 
security, there's privacy, there's human rights, there's child 
safety, there's many different issues and we are not 
government, we are not law enforcement, and so we need to take 
the appropriate balance.
    Critical issues for us, and Microsoft is trying to lead 
across all these different areas to find the right balance. The 
simple answer is that, yes, we can do different things to 
address the images, to address known URLs, and to look across 
our systems, but we definitely want to do it in a way that 
preserves the constitutional rights of Americans and respects 
First Amendment rights.
    We have to balance all those things. I think we have a very 
robust conversation with the national center and the 
international center and other NGOs and with law enforcement to 
try to figure out the best balance.
    Mr. Smith. As we all know, obscenity is not protected 
speech, as you reiterated. Mr. Allen, let me ask the two final 
questions. One would be on--and maybe Microsoft could help us 
on this.
    We're facing challenges in our legislation in identifying 
sex offenders who intend to travel abroad and the issues comes 
down to the ability to communicate between agencies like the 
data that we get from state sex offenders lists and integrating 
passport identification data. We've got these huge data systems 
and very often the left hand can't talk to the right hand, and 
I'm wondering if those kind of logical obstacles you might be 
helpful with at Microsoft.
    Mr. Cranton. I think we can help with technology solutions. 
The barriers are probably more along the legal agreements and 
making sure that there's a comfort in sharing the information. 
As I was mentioning with CETS, the tool is only as good as the 
legal agreement that supports the information sharing around 
it, and that's probably more in the area that would need to be 
explored that's outside of industry.
    Mr. Allen. I agree with that. I think the clear challenge 
is, as we had discussed, particularly internationally. There 
are only six countries in the world that currently have sex 
offender registries. Here in the United States, the challenge 
is to make systems talk to each other and I think it's a noble 
goal. There needs to be a global system. The reality is these 
guys do travel. They take advantage of transportation to evade 
detection and gain access to children. It's an important goal, 
but the implementation hurdles are significant. You said to us 
we need to start somewhere and we need to build a system, and 
we certainly espouse that.
    Mr. Smith. I would note, parenthetically, as you know, Mr. 
Allen, I was the prime sponsor of the Trafficking and Business 
Protection Act. When we started that legislation, it took two 
years to get it enacted and brought it up at the Russian St. 
Petersburg Parliamentary Assembly, people were either not for 
it or very much, Since enactment of that law, over 100 
countries have either initiative brand new laws or 
substantially updated and reformed their laws. I do think our 
law becomes a great teacher for everyone else if we're serious 
about.
    The final question to you, Mr. Allen, would be on those who 
would fudge the line between adoption, which is a wonderful way 
of building a loving family, and those who call adoption 
trafficking. We ran into a problem in an OSCE country and I'm 
fearful it may spread to others, and that was Romania, where a 
woman by the name of Lady Nicholson, a U.K. MEP, was the 
special rapporteur for ascension of Romania into the EU.
    One of her preconditions to the Romanian parliamentarians 
was to ban inter-country adoption and, as a result, 200 
Americans, something on the order of 700 to 800 Europeans, a 
lot of them Italians, majority of them, who already knew their 
child, were in the process of adopting, had that process 
stopped in its tracks. Maura Harty did a great job, tried to do 
much to get that changed. We had the ambassador here at a 
Helsinki Commission hearing from Romania and he, was unable to 
get a change.
    We've talked to the president, everybody under the sun. 
There's no inter-country adoptions in Romania and kids are 
languishing in orphanages, which are infamous in Romania, and 
that also becomes an area or a venue where kids can be 
exploited, trafficked or used in other exploitive ways, and 
they're certainly not getting the loving attention of an 
adopted family. Lady Nicholson, acquaints trafficking and 
adoption as one and the same. We have invited her to testify, 
submit testimony. I've read all of her writings.
    You're an expert Mr. Allen, you are a walking point on 
these issues. While we've got to guard against any child being 
adopted under less than stellar circumstances, you need Hague 
type of protections, which couldn't come at a better time, the 
Hague inter-country adoption convention. But it seems to me 
that Romania has made a serious mistake in bowing to that view. 
Your view, if you would, on adoption and trafficking.
    Mr. Allen. Well, that's not our special expertise at the 
National Center for Missing and Exploited Children. I'm 
conveying my personal view. In a previous life, I used to be a 
lawyer who handled international adoptions for Catholic 
Charities.
    I believe in it. I think it has changed countless lives. 
Clearly, there need to be stronger protections in place. The 
horror stories, like we saw a couple of years ago with the 
child adopted from Russia by a pedophile who used and abused 
that child for many years, there need to be the strongest 
protections in place.
    In my view, the Hague convention on adoption is an 
excellent framework that countries around the world have become 
signatories to and we need to embrace. Clearly, I do not 
espouse the views of Lady Nicholson nor the Romanian 
government. I think this is something that can and is being 
done properly, with the right kinds of precautions around the 
world, and I think it needs to be encouraged, not eliminated.
    Mr. Smith. Thank you, to both of you. Thanks to our 
previous witnesses and their expertise and their leadership. 
The hearing is adjourned.

                                    



  

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
